Peace Corps
Office of Inspector General




         PC/Paraguay office in Asunción




       Final Audit Report:
      Peace Corps/Paraguay
           IG-10-10-A




Acting Assistant Inspector General for Audit

                                               August 2010
                                EXECUTIVE SUMMARY

The Office of Inspector General conducted an audit of Peace Corps/Paraguay January 19
- February 5, 2010. Our overall objective in auditing overseas posts is to determine
whether the financial and administrative operations were functioning effectively and
complied with Peace Corps policies and federal regulations during the period under audit.
Appendix A provides a full description of our audit objective, scope, and methodology.

Several functions of Peace Corps/Paraguay’s financial and administrative operations
were not in compliance with agency policy and guidance. In addition, controls over
certain operations were not effective including lack of separation of duties, inadequate
system controls, and insufficient supervisory review. As a result, the post increased the
risk of fraud, waste, and abuse in areas such as grant management, bills of collection, and
medical supplies. The following provides a summary of the more significant findings.

Grants
The post did not ensure Volunteers submitted timely completion reports for partnership
and Small Project Assistance (SPA) grant projects along with receipts and a full
reconciliation of costs. The Office of Private Sector Initiatives (OPSI) did not provide
adequate oversight of the post to identify projects that were not closed timely and
required corrective action. In addition, the Peace Corps Partnership Project (PCPP)
manual section and accompanying handbook did not provide clear guidance on tracking
funds, reconciling costs, and delegating responsibilities to third parties.

In violation of Peace Corps policy, a previous country director inappropriately signed an
agreement with the local government that obligated the Peace Corps to fund a five-year
scholarship program. Because funds were not yet available the country director risked
violating the Anti-Deficiency Act.

Post staff and Volunteers did not properly manage nor provide oversight of PCPP funds
for five scholarship projects. As a result, a third-party assigned responsibility to manage
grant funds for a scholarship program was able to maintain $21,297 in funds outside the
required bank account. This action eventually led to a mismanagement of funds and a
shortage of approximately $5,523. After four months of repeatedly requesting the
additional funds the fund manager provided the total amount to the scholarship recipients.

Bills of Collection
The billing officer was not using the official Peace Corps accounting system as the
primary billing system. Instead, the billing officer used an external database created by
the cashier to enter the initial bill of collection. As a result, post lacked a complete set of
records; duplicated work entering information in two systems; did not use the required
bill of collection log; and circumvented controls by allowing staff and Volunteers to pay
amounts owed within seven days before entering the bill of collection in the Peace Corps
accounting system.


Final Audit Report: Peace Corps/Paraguay                                                          i
In addition, the billing officer did not receive a copy of the paid receipt; maintain
adequate supporting documentation in the bill of collection files, and record bills of
collection for various types of collections. By not ensuring the billing officer properly
recorded all bills of collection the post bypassed internal controls which reduce the risk
that one individual is able to skim funds from collections and avoid detection.

Medical Supplies
The post had not established proper separation of duties between medical supply receipt,
custody, and recordkeeping. The post lacked documentation supporting quarterly
inventories and the medical supplies list contained discrepancies in the amount of one
medication and expiration dates for two others.

Procurement
The post did not have on file security clearance updates for two personal services
contractors and neglected to implement the requirement for personal services contractors
to sign an intelligence background information certificate attesting to any previous
employment by any intelligence organization or intelligence related activities. Timely
and complete due diligence with respect to security clearances is important to ensure the
continued suitability of the post’s contractors. In addition, personal services contractor
files contained errors including two contract options mistakenly marked as new contracts
and two contracts that provided a full year of bonus payments for half a year of work.

Leases
The post inappropriately executed a lease for a period of one year and 45 months with
four option years. By its terms, the length of the lease agreement risks violating the
Peace Corps Act, which expressly limits the authority of the Peace Corps to enter into
contracts or agreements that entail a commitment for the expenditure of funds in excess
of five years. In addition, the post did not maintain support for competition of leases and
created inefficiencies by issuing one lease at the beginning of a fiscal year.

Volunteer Support
The post did not conduct a market basket survey in fiscal years 2009 and 2010. The
market basket survey is required each year to validate the cost data on the living
allowance survey and ensure Volunteers have adequate allowances to pay for necessities.
Further, the post did not adequately secure Volunteer property temporarily held at post.

Travel Vouchers
Post staff did not prepare their travel vouchers as required by the Overseas Financial
Management Handbook (OFMH); instead the administrative staff prepared the vouchers
on their behalf. A review of travel vouchers identified issues with vouchers not prepared
timely, lacking required information on authorizations, and vouchers not supported by
obligations before the trips dates.




Final Audit Report: Peace Corps/Paraguay                                                      ii
Property
The post did not have a consistent method for assigning property tags and tracking
property, resulting in duplication of work and inefficiency in matching records. In
addition, the post did not ensure proper separation of duties between property record
keeping and physical inventories. The post attempted to implement a property database
to improve tracking and recording property, but had difficulty reconciling its database
with the spreadsheet that headquarters requires for inventory reporting. The lack of a
Peace Corps property system and clear guidance on reporting property contributed to the
inefficiencies at the post.

Our report contains 49 recommendations, which, if implemented, should strengthen
internal controls and correct the deficiencies detailed in the accompanying report.
Several of our recommendations addressed systematic weaknesses in Peace Corps
policies and procedures for PCPP project management, property management, and the
International Cooperative Administrative Support Services. For example, our
recommendations to track and monitor Peace Corps partnership programs will increase
early detection of grant mismanagement and deter potential fraud and abuse of donated
funds.

Management concurred with all 49 recommendations and began implementing corrective
actions. As a result, we closed 38 recommendations and await documentation supporting
corrective actions for the remaining 11 recommendations. See Appendices B and C for
management’s response and OIG comments.




Final Audit Report: Peace Corps/Paraguay                                                  iii
                                                               Table of Contents

EXECUTIVE SUMMARY ............................................................................................................... i 

INTRODUCTION.......................................................................................................................... 1 

AUDIT RESULTS ........................................................................................................................ 1 

A. GRANTS ........................................................................................................................................................... 2 

B. BILLS OF COLLECTIONS ............................................................................................................................... 11 

C. MEDICAL SUPPLIES ...................................................................................................................................... 14 

D. PROCUREMENT ............................................................................................................................................. 17 

E. LEASES .......................................................................................................................................................... 19 

F. VOLUNTEER SUPPORT................................................................................................................................... 21 

G. VEHICLES...................................................................................................................................................... 22 

H. TRAVEL VOUCHERS ..................................................................................................................................... 23 

I. INTERNATIONAL COOPERATIVE ADMINISTRATIVE SUPPORT SERVICES..................................................... 25 

J. PROPERTY ...................................................................................................................................................... 26 

K. IMPREST FUND .............................................................................................................................................. 29 


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE ................................................. 30 

POST STAFFING ....................................................................................................................... 31 

LIST OF RECOMMENDATIONS .................................................................................................. 32 

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY 

APPENDIX B: MANAGEMENT’S RESPONSE 

APPENDIX C: OIG COMMENTS 

APPENDIX D: AUDIT COMPLETION AND OIG CONTACT 
                                      INTRODUCTION

The Office of Inspector General (OIG) conducted an audit of PC/Paraguay January 17 -
February 6, 2010. We previously performed an audit of the post in April - May 2003
(IG-03-04-A issued August 2003).

PC/Paraguay is one of the oldest continuously operating Peace Corps posts in the world.
The Peace Corps commenced its program in Paraguay in 1967. Since then, nearly 3,000
Volunteers have served there. At the time of our visit, 206 Volunteers were engaged in
the following sectors: health, agriculture, early elementary education, urban youth
development, rural economic development, municipal service development, and
environment.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations were functioning effectively and complied with Peace Corps
policies and federal regulations during the period under audit. Appendix A provides a
full description of our audit objective, scope, and methodology.


                                      AUDIT RESULTS

Several functions of PC/Paraguay’s financial and administrative operations were not in
compliance with agency policies. In addition, internal control over certain operations
was not effective. We identified weaknesses in several areas requiring attention,
including:
       Inadequate oversight of PCPP and SPA grants;
       Inefficient and insufficient process for bills of collection;
       Lack of proper separation of duties over medical supplies; and,
       Errors and irregularities in personal services contractor (PSC) files, leases, travel
        vouchers, and property records.

In addition, Peace Corps Manual (PCM) sections for PCPP, International Cooperative
Administrative Support Services, and property management were unclear and did not
provide adequate guidance to posts.




Final Audit Report: Peace Corps/Paraguay                                                        1
A. GRANTS

1. The post did not have an adequate process to monitor PCPP projects to ensure
project funds were properly managed.

The PCPP is designed to identify and accept financial donations to support, within the
context of the goals of the Peace Corps, small-scale, community-initiated development
projects. These projects are jointly proposed by Volunteers and their host-country
community leaders to address basic needs. PCM section 720 provides PCPP policies and
procedures including:

        PCVs [Peace Corps Volunteers], working together with the community, must maintain a
        full accounting of the use of the funds (including receipts). The coordinator will monitor
        the status of the project and coordinate with the PCV during implementation.

        Once the project is completed, the PCV shall submit a final report, including receipts and
        an accounting of funds spent to the coordinator for review. If the final report is
        satisfactory, the coordinator will pass the report to the administrative officer for review.

        Once all obligated funds have been accounted for, the coordinator will pass the final
        report to the country director for review and final approval. The final report shall be
        signed by the PCV, administrative officer and CD [Country Director]. A copy will be
        forwarded to OPSI, along with the budget reconciliation memo if needed.

A programming and training assistant served as the partnership project coordinator at
post. However, she did not always ensure Volunteers submitted completion reports,
receipts for all costs, and a reconciliation of costs. Instead, the coordinator relied on the
associate Peace Corps directors (APCDs) to monitor project progress and did not always
follow up on project completion. The coordinator must communicate regularly with
programming staff and Volunteers in order to properly monitor projects. Partnership
projects require cooperation between the programming staff and the coordinator because
the programming staff visit and are in communication with Volunteers, while the
coordinator monitors the funds and reconciles the costs. The post’s process did not
ensure coordination between the programming staff and the coordinator and as a result,
project final reports were not submitted in a timely manner, and the coordinator did not
have supporting documentation for completed projects. For example, post self-identified
two projects in 2008 and three projects in 2009 that did not have complete documentation
reconciling costs and closing out the project.

One of the control mechanisms to ensure the coordinator is fully informed of partnership
project status is the completion of service checklist used when a Volunteer is preparing to
leave the Peace Corps post. Incorporated in OFMH chapter 16, the post administrative
staff is required to sign off on the checklist that all of a Volunteer’s secondary projects
(including PCPPs) are cleared. This signature verifies that Volunteers completed projects
and submitted the necessary supporting documentation, or transferred the responsibility
to another Volunteer. Although the coordinator signed the completion of service
checklist, we determined that final reports were not always supported by documentation.


Final Audit Report: Peace Corps/Paraguay                                                           2
The coordinator must use this final verification to ensure documentation is complete
before the Volunteer leaves the post because the post must be able to collect any excess
or unexpended funds.

In October 2009 the post became aware of potential misuse of PCPP funds. In response,
the country director reviewed the post’s process for partnership projects. In November
and December 2009, the country director reassigned the PCPP coordinator responsibility
to a member of the administrative staff and initiated a full review of partnership project
documentation. The new coordinator worked with the previous coordinator to identify
projects that required completion reports or lacked adequate supporting documentation.
The new coordinator assumed responsibilities for tracking projects using a spreadsheet
and facilitating a monthly meeting with programming staff to discuss project status.

In December 2009, OPSI began drafting a PCPP handbook for post staff. As of March
2010, OPSI was surveying country directors to obtain their comments about the PCPP.
Once developed, a staff handbook will provide guidance on how PCPP coordinators and
staff better manage the PCPP program. To address the issues such as those identified in
PC/Paraguay, a staff handbook should discuss promoting communication between
programming staff and the PCPP coordinator and maintaining supporting documentation.


                 We recommend:

                 A.1.1 That the PCPP coordinator ensure all completion
                       reports are signed and receipts are reconciled to
                       budgets before signing Volunteers’ close of service
                       checklists.

                 A.1.2 That the coordinator communicate with APCDs
                       concerning outstanding projects and necessary
                       documentation during the monthly meetings.

                 A.1.3 That OPSI continue to develop a PCPP handbook or
                       similar guidance to define staff roles and
                       responsibilities regarding partnership projects.


2. The post permitted a partner organization to inappropriately maintain Peace Corps
funds outside authorized bank accounts and without oversight and monitoring. As a
result, post and Volunteers lost accountability of $42,344 in PCPP funds.

One type of PCPP project is a scholarship. In 2004, a group of PCVs began a scholarship
program in Paraguay. One individual was chosen to present the PCPP proposal to obtain
the scholarship funding and worked through the APCD to develop the project. According
to the Peace Corps Partnership Program Volunteer Handbook:




Final Audit Report: Peace Corps/Paraguay                                                     3
               Scholarship programs can be effective tools to encourage education and increase
               retention in secondary and high schools. While creating a scholarship program, it is
               important to plan strategically for the long-term administration and sustainability of the
               program. This process involves significant planning and the inclusion of host country
               nationals and local organizations.

     Because of the complexity of scholarship projects, Volunteers must coordinate
     extensively with host country nationals. Accordingly, the Volunteers coordinated with an
     office in the host country government and a partner organization to help manage the
     Paraguay scholarship program.

     In 2004, the partner organization established a bank account for the scholarship program.
     Starting in February 2005, one Volunteer a year submitted a partnership project proposal
     through January 2009, and received the funding through OPSI via check written in his or
     her name. The Volunteers then signed the check over to the partner organization to
     deposit in the program’s bank account. The fund manager of the partner organization
     was responsible for depositing and withdrawing the funds to pay scholarship recipients
     during two annual technical trainings hosted by the partner organization. However, we
     determined that the fund manager only deposited the first of the five checks, cashed the
     second and third check before depositing the money, and never deposited the money from
     the fourth or fifth check. The post and Volunteers did not properly manage the PCPP
     funds because they assigned full fund management responsibilities to a third party entity
     without providing oversight of the records.

     A review of the scholarship fund bank account reveals that PCPP checks were not always
     deposited into the bank account, withdrawal of funds did not always correspond to dates
     when scholarship recipients were paid, and funds were subjected to numerous insufficient
     fund fees and other charges. The following Table summarizes the bank account activity
     by PCPP project.

Table 1.
    PCPP Project
                              526-163            526-168           526-174        526-178          526-187         Total
       Number
Month of PCPP                 Feb 2005          Apr 2006          Feb 2007        Jan 2008        Jan 2009
Check Disbursement
Approximate Number                22                36                36              53              52                199
of Scholarship
Recipients
PCPP Check Amount             $5,909              $6,435           $10,000        $10,000          $10,000        $42,344
Check Deposited in            Yes, for              No               No             No               No           $5,909
the bank account?             $5,909
Subsequent Deposits*            0            $6,113 in Apr,       $9,000 in           0                0          $22,381
                                             $1,359 in Oct           Feb
Months Grant Fund             Mar, Jun         May, Oct           Mar, May,         None            None
was Withdrawn                                                      Jun, Jul
Months Scholarship            Mar, Sep          May, Sep          Mar, Oct        Feb, Oct         Feb, Oct
Recipients Paid
*Additional credits to the bank account included approximately $400 wire transfer from a U.S. citizen in June 2008; a
deposit of approximately $98 in April 2009, and interest on the bank account funds.


     Final Audit Report: Peace Corps/Paraguay                                                                           4
In October 2009, the fund manager informed the associate Peace Corps director that she
could not pay the remaining amount owed to the 55 students (approximately half the
scholarship amount). Two members of the Peace Corps staff provided $2,500 of their
own money to pay a portion of the remaining scholarships. The fund manager
subsequently reimbursed the staff members. However, the Paraguayan government
identified an additional amount of approximately $3,023 owed to scholarship recipients.

Over the next three months the Paraguayan government and Peace Corps repeatedly
requested the fund manager provide the missing funds. After several demand letters from
the Paraguayan government in addition to OIG inquiries, the fund manager reportedly
paid scholarship recipients individually. The country director reported that he
accompanied the fund manager as she paid the last scholarship recipient on February 17,
2010. The country director is working with the Paraguayan government to provide the
final accounting of the five-year program.

In summary, Peace Corps did not properly monitor the bank account in accordance with
the scholarship program agreement and did not obtain documentation supporting the use
of PCPP funds. The only supporting documentation available at post was receipts from
scholarship recipients during the October 2009 training in the amount of approximately
$2,500. The remaining amount of PCPP for the five scholarship projects, approximately
$39,844, was unsupported. The last PCPP final closeout report stated, “There were no
invoices for this project, as the check is deposited to the account of our partner
organization … and the scholarship fund is administered by them.” This lack of
oversight permitted the partner organization to inappropriately maintain $36,435
($42,344 - $5,909) in PCPP funds outside the authorized bank account and resulted in the
shortage of $5,523 ($2,500 + $3,023).

The recommendations provided in finding A.1 will help address these issues. In addition,
the country director appropriately reported the incident to management in November
2009. This information was provided to the OIG/Investigations Unit, which opened an
inquiry into the matter. The country director is working with the regional office, Office
of General Counsel (OGC), and OIG to determine the required course of action.

                 We recommend:

                 A.2.1 That the administrative officer review the new
                       process for PCPP coordination and periodically
                       ensure that the coordinator is receiving and
                       maintaining all supporting documentation for
                       Volunteer projects.


3. By signing a five-year agreement to pay for scholarships, the previous country
director did not follow Peace Corps policies, inappropriately committed the U.S.
government before receiving funding, and acted beyond his authority regarding
donated funds.



Final Audit Report: Peace Corps/Paraguay                                                  5
The partnership program is designed for Volunteers to initiate projects and manage
responsibility. However, the Paraguay country director and the APCD for education
initially coordinated with the host country government and partner organization to begin
the Paraguay scholarship program that Volunteers would later fund through PCPP
projects. By executing the scholarship agreement, the country director acted outside the
scope of the PCPP program and failed to comply with PCPP requirements intended for
PCVs.

In May 2004, the Peace Corps country director at the time signed a five-year “Inter-
Institutional Cooperative Agreement” with the Paraguayan Government’s Secretary of
Women and a partner organization to establish the scholarship program. The country
director did not submit the agreement to Peace Corps Washington. As a result, OPSI was
unaware of the commitment of its PCPP funds; the Office of Acquisition and Contract
Management did not approve the cooperative agreement; and OGC could not advise of
the legal ramifications. In addition, the country director did not obtain an English
translation of the agreement to clarify responsibilities and legal liabilities. PCM section
720.5.1.1 requires, “The PCV will work with community members to develop a written
project proposal in English.” The lack of an English translation and a clause in the
agreement specifying the English version as the controlling document increased the risk
that the full meaning of the original agreement may not be conveyed.

Authority for Cooperative Agreements. The PCM does not provide the country
director with explicit authority to enter into cooperative agreements. PCM section 114,
“Delegation of Authority,” attachment B, “Contracts and Agreements,” delegates the
Director’s authority for contracts and agreements. It states:

        4. Authority to authorize, execute, amend, terminate, or administer all contracts, leases,
        agreements, or other procurements; and make decisions, determinations, or findings
        relating thereto, unless otherwise specifically delegated to another employee, and to have
        direct communication with the Director's Office regarding contentious procurement
        matters when necessary to avoid legal or ethical ramifications. (See PCM section 732 and
        PCM section 733. To the Chief Acquisition Officer)

        5. Authority to approve, authorize, execute, amend, terminate, administer, and make
        decisions, determinations, and findings relating to individual contracts, leases, service
        contracts (including telecommunication services), and other procurements up to $100,000
        that are made overseas for their country of assignment; approve and authorize
        procurements up to $3,000 that are made in the United States for their country of
        assignment. (See PCM section 732 and PCM section 733. To Country Directors)

The delegation to the chief acquisition officer clearly includes agreements, while the
country director delegation does not include the same language. Further, PCM section
103, “Interagency Agreements,” states, “The chief acquisition officer shall be responsible
for coordinating the submission, review, approval, and authorization of program
agreements.” It also requires that:

        For program agreements, written final approval rests with the Chief Acquisition Officer,
        unless otherwise delegated by the Peace Corps Director. Approved program agreements


Final Audit Report: Peace Corps/Paraguay                                                           6
        shall be forwarded to the Office of Acquisitions and Contract Management for
        completion and authorization.

PCM section 103 defines program agreement as “an interagency agreement for the
performance or support of specified program activities or services.”

Therefore, the country director may have exceeded his authority by executing a
cooperative agreement with another government and a local non-governmental
organization.

Authority to use Donated Funds. The Peace Corps has both appropriated funds and
trust funds (donations). Donations operate under trust fund rules and are not subject to all
of the requirements of appropriations. Trust funds are subject to the establishing statute
and the rules of the trust. The Peace Corps Act provides Peace Corps with the statutory
authority to accept and retain donations in furtherance of the purpose of the Peace Corps
Act in Title 22 U.S. Code section 2509. Peace Corps assigned this authority in relation to
the PCPP to OPSI. According to PCM section 720.3.3, “OPSI is the only Peace Corps
office authorized to generate support and accept donations for a Partnership project.”
OPSI is also responsible for approving PCPP projects and creating the official
authorization memorandum which serves as both the obligation and payment document.

The country director acted outside the parameters of the PCPP and inappropriately
committed PCPP funds by signing the scholarship agreement. Although the cooperative
agreement did not follow the required PCPP process, the agreement did reflect the PCPP
requirement in PCM section 720.4 that the community must contribute at least 25 percent
of the total project cost. To fund the program the cooperative agreement required:

       That Peace Corps “support the management of the Program’s funds in an amount
        equivalent to 75 percent of the total to be determined for each period.”

       That the Secretariat of Women’s Affairs of the Presidency of the Republic
        “support fund raising, through the PCPP, and provide a counterpart contribution
        amounting to at least 12.5 percent of the total funding, to be distributed in each
        period, which may take the form of human resources, technicians, use and
        enjoyment of physical facilities, or others.”

       That the partner organization “support fund raising, through the PCPP, and
        provide a counterpart contribution amounting to at least 12.5 percent of the total
        funding, to be distributed in each period, which may take the form of human
        resources, technicians, use and enjoyment of physical facilities, or others.”

The cooperative agreement did not include a clause about availability of funds or what
type of funding would be used.1 Based on the development of the program and the

1
  Because the post staff was unable to provide the auditor with the exhibits referenced in the cooperative
agreement, the auditor could not review the complete document. Post staff explained that the exhibits were
a reference to the subsequent PCPPs.


Final Audit Report: Peace Corps/Paraguay                                                                 7
subsequent action to fund the program using the PCPP, it is evident that the country
director intended on using PCPP funds. Because the country director was not authorized
to use donated funds the scholarship agreement created an unauthorized commitment of
PCPP funds. Further, the Paraguay scholarship agreement did not specify the amount or
the number of scholarship recipients; the country director increased the risk of
inadvertently exceeding the available funding. Because PCPP funds become public funds
upon receipt,2 the country director risked violating the Anti-Deficiency Act (31 U.S.C. §
1341(a) (1)), which states:

         An officer or employee of the United States Government or of the District of
         Columbia government may not—

         (A) make or authorize an expenditure or obligation exceeding an amount available in an
         appropriation or fund for the expenditure or obligation; or

         (B) involve either government in a contract or obligation for the payment of money
         before an appropriation is made unless authorized by law.

The Peace Corps’ administrative control of funds ensures compliance with various
statutes and federal requirements, including the Anti-deficiency Act. PCPP funds are
controlled through a sub allotment issued from the chief financial officer to OPSI.
Although the scholarship agreement did not include specific costs or a limit on the
amount to be distributed, we compared the actual amount of partnership funds spent over
the five years ($42,344) to the OPSI PCPP fund balances. Based on our review we
determined that OPSI maintained sufficient balance in its PCPP fund to cover the
estimated cost of the scholarship recipients through the life of the program. Further,
OPSI’s subsequent approval and accounting of PCPP appropriately recorded the
obligations after receiving donations.

Conclusion. The previous Paraguay country director did not comply with Peace Corps
policy regarding partnership funds and the administrative control of funds. His actions
exceeded his authority and risked causing an Anti-deficiency Act violation. Further, not
following PCPP procedures may have been a contributing factor to the mismanagement
of Peace Corps funds by one of the parties of the agreement. This case remains under
review by the OIG Investigations Unit.

PCM section 103 describes the process for submitting interagency agreements through
the regional directors to the chief acquisition officer for approval. While no comparable
PCM section addresses cooperative agreements with host governments and NGOs,
country directors should embrace the procedures described in PCM section 103 to avoid
executing a cooperative agreement without authority or lacking full understanding for the
legal and accounting implications. Following this procedure would also ensure approval
from the chief acquisition officer.

2
  The Government Accountability Office, Principles of Federal Appropriations Law, chapter 6 states, “Gift
funds constitute appropriated funds unless Congress provides otherwise and they are still “public funds” in
a very real sense.” (see Comptroller General Decision B-274855, Jan. 23, 1997)


Final Audit Report: Peace Corps/Paraguay                                                                  8
                 We recommend:

                 A.3.1 That the director for global operations coordinate
                       with the respective headquarters offices to develop
                       and issue a policy memorandum instructing country
                       directors to follow the procedures described in PCM
                       section 103 and reminding them of the legal and
                       administrative risks involved with signing
                       cooperative agreements that purport to obligate or
                       commit U.S. government funds and other resources.


4. The OPSI did not adequately monitor PCPPs to ensure timely completion of work
and accurate accounting of funds.

The Government Accountability Office Standards for Internal Control in the Federal
Government (GAO/AIMD-00-21.3.1) requires control activities to monitor timeliness and
completeness of transactions.

In accordance with PCM section 123.5.4, OPSI “Administers the PCPP and provides
support and training materials on the program.” PCM section 720.5 lists OPSI
responsibilities. Specifically, OPSI manages the program by:

        Reviewing proposals for compliance with regulations; facilitating the process for
        requesting contributions; receiving contributions, and authorizing the use of the
        contributions….Once the project is complete, the post submits the final report to OPSI
        for review.

OPSI did not have an adequate process to monitor PCPPs, because it did not always track
projects’ progress to know when final reports were due and did not require supporting
documentation for project costs. Although the OPSI staff periodically sent posts emails
regarding project status, they did not implement a uniform tracking mechanism for
project status. As a result, OPSI could not ensure it received final reports timely. During
our audit, we determined that OPSI did not have final reports for any of the 17 Paraguay
Partnership Projects from 2008 and 2009. Without a process to track project status OPSI
could not fulfill their responsibilities to monitor PCPPs.

The final reports sent to OPSI included a project log listing invoices and amounts
expended. However, OPSI did not receive copies of receipts and relied on the post
coordinator to ensure the costs reported on final reports were accurate and complete. As
a result, OPSI had limited assurance that projects and partnership funds were properly
managed. To provide adequate supervision of the partnership project, management
should test transactions for accuracy and completeness. Adequate supervision and
monitoring will help prevent and detect misuse of funds such as the incident discussed in
finding A.1.


Final Audit Report: Peace Corps/Paraguay                                                         9
                 We recommend:

                 A.4.1 That OPSI develop a process to track partnership
                       projects from inception through completion, to
                       identify projects that have not been completed in a
                       timely manner or lack supporting documentation,
                       and to request information from the posts needed to
                       close projects timely.

                 A.4.2 That OPSI develop a process to test a selection of
                       partnership projects on a regular basis for accuracy
                       and completeness.

                 A.4.3 That OPSI develop a process to identify posts that
                       repeatedly fail to provide timely and accurate
                       project completion reports and provide that
                       information to the regional management for follow-
                       up and disciplinary actions.


5. Peace Corps policies lacked guidance concerning PCPP management.

PCM section 720.5.1.9 requires, “PCVs working together with the community must
maintain a full accounting of the use of the funds (including receipts).” However, the
policy did not provide guidance explaining when and how a Volunteer may reassign fund
management. In addition, Peace Corps did not have a process to ensure locals that
managed funds were held accountable for partnership funds.

The PCPP application requires that Volunteers and community leaders sign an
application cover sheet that states, “We verify that this project is needed by the
community…and that we fully understand and will fulfill the requirements of the PCPP
in implementing this project.” The cover sheet also asks the applicant, “Has the
community been informed and fully understands that Partnership funds are to be used
only for costs associated with the project and that there will be no additional funding
beyond the authorized amount on the proposal as submitted?” However, the attestation
did not specifically discuss fund management responsibility or legal liability. In
comparison, the U.S. Agency for International Development, SPA documentation
requires both the grant recipient and the community organization officials sign a consent
and liability acceptance form for responsibility of managing SPA funds.

Many Volunteers have not had experience managing funds. Providing additional
guidance or best practices on fund management will help Volunteers track costs,
especially in the local environments where documentation of expenses and receipts are
not as common. In finding A.1 we discussed the five partnership projects where
Volunteers assigned fund management to a partner organization. The misuse of the
project funds might have been prevented if the Volunteers were provided more guidance



Final Audit Report: Peace Corps/Paraguay                                                10
on the need to track project funds and how to coordinate fund management with partner
organizations. In addition, by having all fund managers sign consent and liability
acceptance, the Peace Corps helps protect its legal interests and the integrity of its
privately donated trusts funds.

                 We recommend:

                 A.5.1 That OPSI provide guidance on how Volunteers can
                       effectively manage project funds, and when the
                       assistance of local communities to manage funds is
                       reasonable.

                 A.5.2 That OPSI work with the OGC to develop a notice
                       of liability form for community partners to sign
                       when receiving partnership funds.


B. BILLS OF COLLECTIONS

1. The billing officer did not use the official accounting system as the primary billing
system.

OFMH 7.2.1 requires the billing officer:

        Enter [amounts owed] into FORPost as a Bill of Collection (or other appropriate entry,
        such as Prepare Proceeds of Sale or Prepare HCC). The bill of collection must be in
        English. The Bill must be in the currency of the obligation being credited and for the full
        amount owed. The information entered will appear on the FORPost BOC Log.

OFMH 7.3 states, “Payment is due within 30 days of receipt of the billing document
(issued by the billing officer).”

The billing officer was not using ForPost as the primary billing system. When the billing
officer was made aware of an amount owed, she first entered the information into an
external FoxPro database. The database printed a bill of collection similar to the ForPost
form. The billing officer provided the FoxPro form to individuals owing Peace Corps
money. If the individual had not paid within 7 days, the billing officer would then enter
the information in ForPost as an official bill of collection. This allowed individuals to
repay amounts owed before ForPost began tracking the days outstanding. During our
review we identified four payments in 2009 that were paid before a bill of collection was
issued.

As a result of recording bills of collection outside ForPost, the billing officer duplicated
work entering information into two systems and did not ensure compliance with the
OFMH. During the audit, we compared the FoxPro database to the ForPost bill of
collection log and identified several transactions that did not match. We determined that
ForPost contained all bills of collection listed in the FoxPro and additional entries for


Final Audit Report: Peace Corps/Paraguay                                                         11
overpayment of Volunteer allowances and staff travel that were not recorded in the
FoxPro database. The cashier maintained records on the overpayment of Volunteer
allowances and staff travel but did not provide the documentation to the billing officer.
In finding B.2 we discuss the process for sending records to the billing officer.
In addition, the collection officer created the FoxPro database. Although the collection
officer did not have a user account, the billing officer required his assistance anytime the
system required additional programming or other adjustments. Because of the collection
officer’s knowledge of FoxPro database and ability to manipulate the database, the
system controls could be overridden to circumvent the separation of duties. In addition,
the alternate cashier had access to the FoxPro database and could potentially remove cash
collections from the records. Although we did not identify instances of fraud during our
review of the bills of collection, the risk of fraud is significant because of the potential
lack of separation of duties.

In summary, the FoxPro database bypassed system controls, was not efficient, did not
contain complete data, and increased the risk of fraud.

                 We recommend:

                 B.1.1 That the billing officer fully utilize ForPost for
                       billings and collections and stop using the outside
                       system.


2. The billing officer did not maintain adequate documentation to support bills of
collection.

OFMH 7.2.1 requires the billing officer to determine the amount owed based on the
following documentation/ information:

                     Personal use of vehicle - mileage from vehicle log x reimbursement rate.
                      See PCM Section 522 for approvals required and mileage rate information
                     Personal use of telephone/Fax - itemized bill from the utility company
                     Unused travel advances - advance minus amount certified on the travel
                      voucher
                     Refund of excess funds - receipts for payment of goods/services
                     Allowance overpayments to Volunteers - date of departure from Post
                      (reduced for days not at Post)
                     Overpayment of salary or other payment, based on contract terms
                     Refund of excess funds for center-funded activities, such as SPA projects -
                      receipts
                     Host country contributions (HCCs) - memorandum or letter from donor
                     Proceeds of sale - summary of items sold

In addition, OFMH 7.2.1 and 7.3.1 requires the collection officer to send a copy of the
paid receipt to the billing officer and the billing officer to maintain the general receipt in
the billing file.


Final Audit Report: Peace Corps/Paraguay                                                            12
The billing officer did not receive the support for all of the types of bills of collection,
including: documentation for the personal use of Peace Corps vehicles, overpayment of
Volunteer allowances, amounts due at close of service and early termination, bank
refunds, and travel voucher collections. In some situations the cashier would inform the
billing officer of the amount owed but would not provide the supporting documentation.

The cashier maintained the records for Volunteer allowances, Volunteer payment records,
and the database of vehicle use. Because of the cashier’s knowledge of FoxPro software,
the post often relied upon him to create databases and maintain various data sets.
Although the administrative officer reviewed the cashier’s records regularly, the billing
officer should also review the records to ensure documentation provides support for bills
of collection.

Further, the collection officer did not provide a copy of the general receipt to the billing
officer. Without the general receipt the collection officer could not ensure payments
were received and credited properly in ForPost. This increased the risk of fraud because
a payment could be diverted for personal use, especially in conjunction with the internal
control weaknesses identified in finding B.1.

                 We recommend:

                 B.2.1 That the billing officer receive the support for all
                       billings directly from the staff responsible for
                       tracking the documentation supporting the amount
                       owed.

                 B.2.2 That the billing officer maintain supporting
                       documentation for all billings, including the basis
                       for the amount owed and the general receipt.

                 B.2.3 That the collection officer provide general receipts
                       to the billing officer on a regular basis.


3. Post staff did not always repay bills of collection timely.

OFMH 7.3 states, “Payment is due within 30 days of receipt of the billing document
(issued by the billing officer).”

The billing officer did not ensure payments were received timely. During our review, we
determined that 14 out of 165 bills of collection were not paid within 30 days. Late
payments prevent Peace Corps from earning interest on the funds and require additional
time and effort to collect.




Final Audit Report: Peace Corps/Paraguay                                                   13
                 We recommend:

                 B.3.1 That the billing officer requires staff to repay bills
                       of collection within 30 days.


C. MEDICAL SUPPLIES

1. The post did not maintain adequate separation of duties over its medical supplies.

PCM section 734.3.4 states:

        The Medical Supply Inventory Control (MSIC Clerk) is designated by the
        country director. The MSIC Clerk maintains the medical inventory control log,
        which houses the inventory status of all medical supplies that are specially
        designated or controlled substances purchased, received, and stocked at post.
        The MSIC Clerk must be a person from outside the Medical Unit staff.

        The Acceptance Point Clerk (APC) is responsible for receiving medical supplies
        at post and coordinating their initial inventory and transfer to the Medical Unit.
        The APC works with both the MSIC Clerk and the PCMO to ensure that medical
        supplies are delivered and inventoried. The APC must not be an individual
        assigned to the Medical Unit staff, and cannot serve as the MSIC clerk. Further,
        the APC may not perform the quarterly inventory of medical supplies.

According to PCM section 734.3.5.3:

        The MSIC Clerk must maintain an accurate and complete set of inventory
        records for all medical supply items that are specially designated or controlled
        substances (medical inventory control log).

        The PCMO must use form PC-734C to record the item and quantity dispensed, to
        whom it was dispensed, and when dispensed.

        Copies of the PC-734C forms and disposal records should be sent to the MSIC
        Clerk at least monthly. Before providing copies of the form PC-734C to the
        MSIC Clerk or anyone other than Medical Unit staff, the section of the form
        containing personally identifiable information must be removed and destroyed.

On November 26, 2008, Peace Corps updated PCM section 734 to improve controls over
medical supplies. The updated guidance assigned the MSIC clerk inventory
responsibilities. However, the country director had not appointed a MSIC clerk. We
determined that a medical office assistant was still primarily responsible for the medical
supply inventory, acquisition, and storage of medical supplies.

Although the country director had not officially appointed an APC, the post had an
administrative staff review receipt and acceptance of all medical supplies with the




Final Audit Report: Peace Corps/Paraguay                                                     14
medical officer. The administrative staff entered the new supply information into the
medical inventory database.

In addition, post was not using the required medical supply forms contained in PCM
section 734.3.4. Although not the required form, post did use a disposal form that
contained the necessary information. However, the form post used for dispensing
pharmaceuticals did not require PCMO signature and did not allow the dispensing
information to be separated from the Volunteer’s name. In accordance with PCM section
734, the form for dispensing must be provided to the MSIC clerk for all specially
designated and controlled substances. Therefore, it is important to use the correct form to
ensure inventory accuracy and Volunteer privacy. The official medical supply forms
ensure an effective flow of information between medical staff and the MSIC clerk.

It is important that the post implement the revised Peace Corps policy related to medical
supplies and equipment in a timely manner. Adequate separation of duties is critical to
effective internal control and minimizes the risks associated with fraud, waste, and abuse.

The post had an effective medical supply database that used bar code scanning and had
separate access levels depending on job responsibility. However, the cashier, also
serving in the capacity of the APC, created the database and kept full access to the system
in order to make improvements. The user controls must prevent any one individual
involved in the process from having access to all information. This helps ensure that
users cannot bypass system controls and access or change information that exceeds their
job responsibilities. If used properly, this system can help facilitate and enforce
separation of duties once post has appointed a MSIC clerk.

                 We recommend:

                 C.1.1 That the country director designate a staff member
                       as an APC who is outside the medical unit and not
                       the MSIC clerk to immediately begin to receive,
                       inspect, and distribute medical supplies to the
                       medical unit and assume all other duties as
                       described in PCM section 734.

                 C.1.2 That the country director designate a staff member
                       outside of the medical unit, who is not the MSIC
                       clerk or APC, to perform quarterly physical
                       inventories of medical supplies.

                 C.1.3 That the country director ensure that duties
                       associated with receipt and acceptance of medical
                       supplies; maintaining official medical supply
                       inventory records of specially designated items and
                       controlled substances; and periodic physical




Final Audit Report: Peace Corps/Paraguay                                                 15
                          inventory counts be assigned to separate staff
                          members that are outside the medical unit.

                 C.1.4 That the medical unit provide the MSIC clerk with
                       the official form recording the dispensing of all
                       medical supplies, without the Volunteer
                       information, for all specially designated or
                       controlled substances at least on a monthly basis.

                 C.1.5 That the MSIC clerk maintain an accurate and
                       complete medical supply inventory record based on
                       receipting documents provided by the acceptance
                       point, forms recording dispenses, disposal
                       documentation, and reconciliation of the results
                       from the quarterly physical inventory counts.

                 C.1.6 That the country director separate the user roles
                       within the medical supply database to ensure of the
                       database administrator does not have responsibility
                       for updating records.


2. Medical inventory records were not accurately maintained.

PCM section 734.3.5 states:

        The Country Director and PCMO share the responsibility to maintain effective
        control over medical supplies to ensure that these items are properly dispensed or
        disposed of in accordance with Peace Corps policies and procedures. Assurance
        that effective controls are in place is achieved through maintaining appropriate
        segregation of duties, accurate record keeping, secure storage, and periodic
        inventories.

We attempted to verify the existence of all controlled and sixteen non-controlled
pharmaceuticals. The controlled pharmaceutical inventory was accurate. However, of
the sixteen non-controlled substances, the medical officer clerk listed one pharmaceutical
with an incorrect amount and two pharmaceuticals with incorrect expiration dates in the
inventory.

Accurate and complete inventory records are critical to effective internal control over
medical supplies. In addition, accurate inventory records are necessary to ensure that
there is an adequate supply of medicals supplies available to treat Volunteers. Effective
inventory procedures are necessary to prevent theft, loss, and potential abuse of medical
supplies.

In addition, PCM section 734.3.5.3 requires quarterly inventories be conducted by a
member of staff from outside the medical unit. Post could not provide supporting


Final Audit Report: Peace Corps/Paraguay                                                     16
documentation showing that staff conducted the quarterly inventory. The quarterly
inventory is necessary to identify and correct discrepancies such as those noted during
this audit.

                 We recommend:

                 C.2.1 That the country director require designated staff to
                       perform an immediate physical inventory count of
                       medical supplies.

                 C.2.2 That the country director, in conjunction with the
                       medical officers, review the results of the
                       comprehensive physical inventory and reconcile
                       any differences found. The medical officers must
                       fully explain all discrepancies found, provide
                       proposed adjustments in inventories accordingly,
                       and report any losses in accordance with PCM
                       section 734.

                 C.2.3 That the MSIC clerk document the results of the
                       comprehensive medical supply inventory together
                       with any approved adjustments to the inventory in
                       permanent inventory records as prescribed in PCM
                       section 734.


D. PROCUREMENT

1. Personal services contractors (PSCs) did not complete the required intelligence
   background information certification form.

According to PCM section 743.8.1:
        PSCs are subject to the policy and eligibility standards set forth in PCM section 611
        concerning eligibility of applicants with intelligence backgrounds. … Prospective PSCs
        are required to complete the intelligence background form provided as Attachment A to
        manual section 611, in addition to being certified through the appropriate security
        clearance process.

PCM section 611.1.0 explains the need for the intelligence background forms and states:

        The policy is founded on the premise that it is crucial to the Peace Corps in carrying out
        its mission that there be a complete and total separation of Peace Corps from the
        intelligence activities of the U.S. government, both in reality and appearance. Any
        semblance of a connection between Peace Corps and the intelligence community would
        seriously compromise the ability of the Peace Corps to develop and maintain the trust and
        confidence of the people of the host countries.
The administrative officer had not implemented the requirement to have PSCs complete
the intelligence background information certification form. As a result, the post did not


Final Audit Report: Peace Corps/Paraguay                                                             17
have assurance that employees had not been associated with intelligence activities that
may compromise the host country’s confidence in the Peace Corps.

It is important for the administrative officer to obtain and maintain completed intelligence
background information certification forms for all PSCs because agency policy dictates
that individuals who have prior connections with intelligence activities through
employment, related work, or even family relations may be ineligible for a personal
services contract.

                 We recommend:

                 D.1.1 That the country director require all PSCs to
                       complete an intelligence background information
                       certification form in accordance with Peace Corps
                       policy.

                 D.1.2 That the administrative officer include copies of
                       personal services contractors’ completed
                       intelligence background information certification in
                       their respective files.


2. The post did not have security clearance updates for all PSCs requiring them.

PCM section 743.8.2 states: “The Country Director must request re-certification of a
continuously employed PSC every five years in accordance with 12 FAM 420.
Documentation of the security certification will be filed in the individual PSC’s contract
file at post.”

We judgmentally selected six out of 40 PSC files to review for documentation
completeness. Security clearance updates were not included in two out of six
judgmentally selected PSCs files. Security clearance updates are an essential element in
the post’s due diligence to ensure PSCs’ acceptability for continued Peace Corps
employment. The administrative officer was able to obtain a copy from the regional
security officer showing that the updates were previously completed.


                 We recommend:

                 D.2.1 That the administrative officer track the employee
                       security clearance expiration dates to ensure the
                       post requests updated clearances timely.

                 D.2.2 That the administrative officer include copies of the
                       security clearances in the personal services
                       contractor files.



Final Audit Report: Peace Corps/Paraguay                                                  18
3. PSC contracts contained errors and irregularities.

During our review, we determined that two PSC files mistakenly marked modifications
as new contracts. New contracts have additional requirements based on the Federal
Acquisition Regulation. In addition, identifying modifications as new contracts may
cause additional mistakes such as inappropriately extending the period of performance.
Therefore, the country director must review contracts closely to ensure accuracy before
issuing new and/or modifications to contracts.

In addition, two contracts for technical trainers had a discrepancy between the period of
performance and the amount of bonus payments. The contracts listed the first period of
performance from January 3, 2010 to May 5, 2010 and four full option years beginning
December 19, 2010 through December 17, 2011. However, the contract compensation
chart and the total contract cost listed a full year’s cost for the base year. Although the
PSCs were paid biweekly, this discrepancy impacted the amount of the yearly bonus
payments. The summer and winter bonus payments are calculated on a percent of basic
pay. Because the contracts listed a full year of costs for the base year, the bonus
payments were inappropriately listed at twice the actual rate. The post could save $210
($105 each contract) by correcting this discrepancy and recalculating the bonus payments
using the adjusted basic pay.

                 We recommend:

                 D.3.1 That the country director modify the technical
                       trainer contracts and correct the basic compensation
                       and bonus payment calculations based on the actual
                       period of performance.


E. LEASES

1. The post inappropriately contracted for a lease that will exceed the statutory limit of
   five years.

Section 2509(c) of the Peace Corps Act states, “A contract or agreement which entails
commitments for the expenditure of funds available for the purposes of this chapter …
may extend at any time for not more than five years.”

The base contract for a residential lease was August 15, 2008 to September 30, 2009
(1 year and 45 days). The lease included four option years extending to September 30,
2013. If these options are exercised the post will have contracted for a period of 5 years
and 45 days. As a result, the post will exceed the five-year limitation established in the
Peace Corps Act unless it modifies the contract.




Final Audit Report: Peace Corps/Paraguay                                                  19
In addition, the post renews the lease at the beginning of October each year, which causes
the post additional work to obligate what is available under continuing resolution until a
formal appropriation is available. This also increases the risk that the post inadvertently
violates the Anti-Deficiency Act by obligating the government without an appropriation.
PCM section 733.4.7 states:

        In order to avoid violations of the Anti-Deficiency Act, a lease must not be signed nor
        can an option be exercised during a period in which the Peace Corps is without an
        appropriation. Ordinarily, this can be done by avoiding lease expiration dates, or dates on
        which options to renew must be exercised, in the first few weeks of October, which is the
        beginning of the fiscal year.

By adjusting the lease dates the post can help prevent Anti-Deficiency Act violations and
ensure leases are properly funded.

                 We recommend:

                 E.1.1 That the administrative officer take immediate
                       corrective action to ensure the lease for the
                       residence does not exceed five years.

                 E.1.2 That the administrative officer avoid signing leases
                       with expiration and renewal dates in the first few
                       weeks of October.


2. The post did not fully document competition for lease contracts.

The Federal Acquisition Regulation contains policies and procedures used to promote
and provide for full and open competition, which includes the requirement that
solicitations be in writing for contracts in excess of $30,000. Peace Corps implements
the Federal Acquisition Regulation requirements in PCM sections 733 and 734.
PCM section 733.4.2 states, “To the maximum extent practicable, leases shall be awarded
on a competitive basis.” PCM section 732.6 requires bids be in writing for purchases
exceeding $10,000. Requiring written solicitations helps ensure fair contracting practices
and the most economical acquisitions.

None of the six leases at post were supported by documentation showing competition.
One lease was from 1985, one from 2000, and the remaining four leases were from 2008
and 2009. Post personnel stated that several properties were considered when leasing,
but without documentation this could not be verified. PCM section 733 permits market
surveys as an acceptable means of ensuring competition. Post must fully document its
market surveys, review of various properties, and decision making process for selecting
rental properties to ensure compliance with the PCM section 733 and Federal Acquisition
Regulations.




Final Audit Report: Peace Corps/Paraguay                                                         20
                 We recommend:

                 E.2.1 That the administrative officer maintains
                       documentation showing the competition in the lease
                       folders.


F. VOLUNTEER SUPPORT

1. The post did not conduct market basket surveys to determine whether Volunteer
   allowances were appropriate.

PCM section 221.5.7.2 states:

        To verify living allowance survey submissions, a market basket survey shall be
        conducted by staff.

        The market basket survey is to be used as a guide to validate the cost data on the
        living allowance survey submissions. Large differences in prices between the
        market basket items and the Volunteer allowance submissions should be
        reviewed by post during the analysis of the surveys and adjusted, if necessary.

The administrative officer informed us that the post had not conducted a market basket
survey in the last two years. Market basket surveys are required by Peace Corps policy
and are essential for determining whether Volunteer allowances are reasonable. Without
the market basket survey, the post must rely on data submitted by the Volunteers and
outside information which may not be fully sufficient for purposes of setting a reasonable
allowance.

In October 2009, the Volunteer allowance surveys showed that the Volunteer
coordinators in Asunción requested an increase of 17 percent and that other Volunteers in
Asunción reported spending more than the allowance. However, post did not increase the
allowance. A market basket survey would help the post determine whether an increase
was necessary and would provide support for the decision.

                 We recommend:

                 F.1.1 That the administrative officer conduct a market
                       basket survey in conjunction with each living
                       allowance survey and compare the results to
                       determine if Volunteer allowances are reasonable.
                       In accordance with Peace Corps policy, the post
                       must analyze significant differences and make any
                       necessary adjustments in living allowances.




Final Audit Report: Peace Corps/Paraguay                                                     21
2. The post did not adequately safeguard Volunteer property.

PCM section 235.3.5 states, “The country director may authorize Peace Corps employees
and contractors to take custody of Volunteer/Trainee property only under the following
circumstances:

        (a) An unforeseeable emergency (e.g., Medevac or emergency leave) provides the
        V/T with no opportunity to make arrangements for safeguarding property; or

        (b) Exceptional, individual cases in which the country director believes that Peace
        Corps custody is essential to safeguarding the property.”

According to PCM section 235.4.1.4, “The Country Director may authorize
reimbursement of items lost, damaged, or stolen while in Peace Corps custody, provided
that Peace Corps assumed custody of items in accordance with Section 3.5.”

The country director permitted Volunteers that were being relocated to a safer region to
store luggage at the Peace Corps post temporarily. However, the post kept the luggage
outside under a canopy. The luggage was easily accessible to anyone at the post.
Without proper safeguarding such as controlled access and inventorying, the post
increases the risk that Volunteer property may be lost or stolen. The post could be held
liable for any Volunteer property lost or stolen under these circumstances.

                 We recommend:

                 F.2.1 That the country director instruct his staff to secure
                       the Volunteer property held at post in a locked area
                       with controlled access.

                 F.2.2 That the country director develop a process to
                       inventory the Volunteer property held at post to
                       record a description of the property and estimated
                       value in case of loss or theft.


G. VEHICLES

1. The post exceeded its authorized number of vehicles without obtaining proper
   approval from the region and the Office of Management.

PCM section 527.5.1.1 states:

        A post may not maintain a vehicle fleet in excess of the established ceiling in the
        post's VFP [Vehicle Fleet Plan], except:

        (a) As approved by M/OBO [subsequently renamed Post Logistics Support, Office of
        Management];


Final Audit Report: Peace Corps/Paraguay                                                      22
        (b) For a temporary period necessary to dispose of an excess or replaced vehicle. (Posts
        should dispose of excess vehicles immediately as set out in MS 511, Property
        Management. Replaced vehicles shall be disposed of within 60 days of placing the new
        vehicle in service); or
        (c) For vehicles loaned to the Peace Corps without cost.

The post received two new vehicles in December 2009. With these new additions the
post had 15 vehicles, but was only authorized to have 13 vehicles according to the vehicle
fleet plan. Although the post has 60 days to dispose of the excess or replaced vehicle, the
administrative officer stated that the post planned to keep 15 vehicles on hand during the
next pre-service training in March. The administrative officer also stated that the post
communicated this plan to regional management and received verbal approval. However,
the post had not yet obtained formal approval from regional management and the Post
Logistics Support within the Office of Management.

                 We recommend:

                 G.1.1 That the country director requests written approval
                       from the regional director and the Post Logistics
                       Support within the Office of Management.



H. TRAVEL VOUCHERS

1. Individuals did not prepare their travel vouchers upon completion of travel.
Instead, administrative staff prepared travel vouchers for all the staff.

OFMH 57.6 states, “It is the responsibility of the traveler to personally prepare the travel
voucher within 5 days of completion of the travel. The administrative unit reviews and
approves the travel voucher.”

The administrative staff prepared travel vouchers for individuals after completion of
travel by obtaining supporting documents, such as receipts, and entering the information
in the travel voucher form. The individual signed the completed form and submitted it to
the country director. As a result, the post increased the risk that travel vouchers were not
accurate or complete because administrative staff may not have all the necessary
information or knowledge of expenses incurred during the trip. This also reduced the
individual traveler’s responsibility and accountability to report travel expenses by
inappropriately relying on administrative staff.

                 We recommend:

                 H.1.1 That the administrative officer require staff to
                       prepare their own travel vouchers.




Final Audit Report: Peace Corps/Paraguay                                                       23
                 H.1.2 That the administrative officer provide training to
                       staff on how to properly prepare their own travel
                       vouchers.


2. Travel vouchers were not always prepared accurately and timely.

PCM section 812.18.10 states:

        A travel voucher for each trip performed at Peace Corps expense must be completed and
        submitted within five working days after completion of travel. A guide for preparation of
        travel vouchers is available from the Accounting Division (M/FM/A).

OFMH 57.2 states:

        A travel authorization (TA) must be issued before travel begins for any traveler. . . . It is
        important to specify the per diem rate on the travel authorization and advise the traveler
        of the rate before the beginning of travel. If the rate established by the country director is
        not indicated on the TA, the standardized rates will automatically apply.

A review of 14 travel vouchers identified the following discrepancies:

    •   Two travel vouchers were not prepared within five days of completion of travel.
        The trips were for international travel by U.S. direct hires. One was submitted 56
        days and the other nine days after completion of travel.

    •   Travel authorizations did not include stated per diem rates.

    •   One travel voucher did not have an obligation established in the accounting
        system before the trip dates. The obligation is necessary to ensure adequate
        funding. The trip was during the beginning of a fiscal year and the post was in the
        end of year closeout process. However, Peace Corps policy discusses how to
        handle travel at the end and beginning of fiscal years. OFMH section 32.9.7
        states, “The months of October and November may be funded from either the
        current or following years budget authority provided that the travel is supported
        by a valid travel authorization.”

                 We recommend:

                 H.2.1 That the administrative officer ensure travel
                       authorizations are established before travel and
                       provide the stated per diem.

                 H.2.2 That the administrative officer ensure travel
                       vouchers are submitted within five days of
                       completion of travel with an accurate accounting of
                       costs.


Final Audit Report: Peace Corps/Paraguay                                                           24
I. INTERNATIONAL COOPERATIVE ADMINISTRATIVE SUPPORT SERVICES

1. The post did not have on record the required waiver for subscription to services
exceeding those authorized in the PCM. However, the PCM is outdated and no longer
describes the current International Cooperative Administrative Support Services
(ICASS) process.

PCM section 708.4.1 states, “For reasons of cost-effectiveness, Peace Corps has limited
the range of Foreign Affairs Administrative Support (FAAS) services for which posts
may contract.” The manual lists ten subfunctions that are authorized services.

According to PCM section 708.4.2:

        Under exceptional circumstances, a Country Director may identify a need for FAAS
        services which are not on the list of authorized subfunctions. In such a case, the Country
        Director should list the specific services needed and send it with a written justification to
        the Director of Financial Management to request a waiver from the restriction . . . . The
        Director of Financial Management will inform the post if the waiver has been approved.
        In the absence of such a waiver all posts are expected to find alternative means to
        accomplish administrative functions such as maintenance, custodial services, travel
        services, etc., through either Peace Corps staff capability or local sources.

The post did not have on record the waiver from Peace Corps headquarters for
subscribing to the following services:

    •   leasing,
    •   information management,
    •   human resources for U.S. direct hires, and
    •   nonresidential building operations.

The post requested that the embassy remove them from the leasing service, but it would
not take effect until the next ICASS period.

Post explained that it subscribed to the U.S. direct hire human resources for value added
tax exemption processing and the nonresidential building operations for small
warehousing space to participate in auctions. However, the post already subscribed to the
basic services, which included value added tax exemption processing and shipping and
customs services that commonly included auctions. Therefore, the post should not be
charged for these services under additional categories in the ICASS.

Some of these services that the post subscribed to are common services that other posts
use. However, the PCM does not allow for these services without a waiver. Peace Corps
has not updated PCM section 708, “Foreign Affairs Administrative Support” since July
1987. In 1997, the Department of State replaced FAAS with the International
Cooperative Administrative Support Services. However, Peace Corps did not update
PCM section 708 and has not revisited the policy since that time. A review of Peace


Final Audit Report: Peace Corps/Paraguay                                                           25
Corps posts’ use of ICASS may identify additional services that should not require a
waiver. By reviewing and updating the list of authorized services, headquarters could
alleviate burdensome and outdated requirements of the post staff.

                 We recommend:

                 I.1.1    That the country director obtain a waiver from the
                          director of financial management for the services
                          that are not explicitly authorized in PCM section
                          708 or find an alternative means for the services.

                 I.1.2    That the Office of the Chief Financial Officer
                          update PCM section 708 to incorporate ICASS.


J. PROPERTY

1. The post did not have a consistent method of assigning property tags to personal
property.

According to PCM section 511.2 capitalized property is:

        Non-expendable personal property that has an initial acquisition cost of $500 US or more,
        an estimated service life of two years or longer, is considered highly pilferable, or that
        has been issued a manufacturer's serial number must be capitalized and entered into the
        property database as such. Examples include computers, printers, and vehicles.

PCM section 511.7.3 states, “Each piece of capitalized property must have a Peace Corps
Property Tag attached. Overseas office property tags are blue, blue and silver metallic, or
white bar code labels.”

The post did not have a consistent method of assigning property tags to personal
property. The property officer initially used a database to track the property. However,
she stopped using it because headquarters required annual inventories be submitted using
a prescribed spreadsheet. In 2009, she conducted a thorough review of property and
assigned new property tags printed at post and entered the information into a spreadsheet.
However, the old bar codes were still visible on some of the property, including official
bar codes from headquarters. In addition, headquarters bar-coded information technology
property it procured before shipment to the post. The information technology specialist
maintained a database of all information technology property and provided this
information to the property officer to add to the spreadsheet sent to headquarters during
the annual inventory. As a result, the post duplicated work and required unnecessary data
cleansing to provide a complete inventory.

The inefficiency in property management is exacerbated by the lack of clear guidance
and a Peace Corps-wide property system. Peace Corps property policies are outdated and



Final Audit Report: Peace Corps/Paraguay                                                       26
are not compatible with the agency’s financial statements and federal guidance. PCM
section 511 defines capitalized property as:

        Non-expendable personal property that has an initial acquisition cost of $500 US or more,
        an estimated service life of two years or longer, is considered highly pilferable, or that
        has been issued a manufacturer’s serial number must be capitalized and entered into the
        property database as such.

According to this definition most property at post would be capitalized because it has a
life of two or more years. However, that is not the practice of the Peace Corps. Instead,
the Peace Corps Financial Statement states: “The agency capitalizes property, plant, and
equipment that has an individual acquisition cost of $25,000 or greater, a useful life of
two years or more, not intended for sale in the ordinary course of business, and intended
to be used or available for use by the entity.”

The manual section also includes a category called non-expendable property. Non-
expendable property is durable property with an anticipated useful life of over one year, a
value of over $500, or property that has been assigned a manufacturer's serial number.
This definition is not consistent with the Statement of Federal Financial Accounting
Standard No. 6, "Accounting for Property, Plant, and Equipment," which classifies
property, plant, and equipment as "Tangible assets that (1) have an estimated useful life
of 2 or more years, (2) are not intended for sale in the ordinary course of business, and (3)
are intended to be used or available for use by the entity.”

PCM section 511 should clearly differentiate between accountable property and
capitalized property. Accountable property is the property that must be tracked to
prevent loss or theft. In determining accountable property the Statement of Federal
Financial Accounting Standard No. 6 is still applicable and should be used in conjunction
with other criteria such as the $500 threshold and definition of pilferable property. For
capitalized property, which is recorded as an asset in the financial statements, PCM
section 511 should be consistent with the Office of the Chief Financial Officer definition
as expressed in the Peace Corps financial statements.
PCM section 511 also discusses how to conduct inventories and file property cards in the
Propman system, which is no longer used. Although Peace Corps is in the process of
implementing a new property system, until a system is deployed the manual must reflect
the current processes.

                 We recommend:

                 J.1.1    That the chief of staff direct the update of PCM
                          section 511 in order to clearly define the categories
                          of property in agreement with federal standards and
                          financial policies and to remove references to the
                          property systems no longer used.

                 J.1.2    That the property officer develop a process for
                          tagging and inventorying property that uses the


Final Audit Report: Peace Corps/Paraguay                                                       27
                          official Peace Corps property tags for capitalized
                          property and promotes efficiency between the
                          property officer and information technology
                          specialist.


2. The post did not ensure separation of duties between recording property and
conducting verification of inventory existence. Further, post did not maintain
documentation showing the results of physical inventory verifications.

PCM 511 requires:

        Each office must take an inventory at least once a year, physically counting each item to
        verify that all property is on hand and properly recorded in the property management
        database. Offices may inventory various categories of non-expendable property
        throughout the year to balance workload.

        Individuals other than the Property Officer should check database property reports
        against physical inventory of property to confirm the existence of property listed on the
        inventory record.

        PC-1524 is a report of office property inventory records. All non-expendable property
        should be listed in the inventory records, including Agency property identified on
        Property Record Cards.

        Overseas offices maintain copies of the following records for three years:

                PC 1524
                Maintenance Record Cards
                Property Hand Receipts
                Loss Reports

The property officer was responsible for conducting the physical inventory. However,
the property officer was also responsible for maintaining the official property inventory
database. To ensure proper separation of duties, the record-keeper should not conduct the
verification of the property. Separating these responsibilities would help prevent fraud
and maintain property control by ensuring that loss or theft of property could not be
easily hidden in the property records.

                 We recommend:

                 J.2.1    That the country director assign individuals other
                          than the property officer to conduct the physical
                          inventories.

                 J.2.2    That the property officer maintain records
                          documenting the physical inventory and
                          reconciliation process.


Final Audit Report: Peace Corps/Paraguay                                                            28
K. IMPREST FUND

1. The cashier did not have a lock box to keep the local currency coins.

PCM section 760.5.4 states, “If a post operates both dollar and local currency funds, the
two funds must be kept in separate cash boxes, accounted for separately, and may not be
intermingled.”

Although the cashier had a separate lock box for the U.S. dollars and the local currency
bills, the lock box for the local currency was not large enough to hold all of the coins.
Keeping the currencies separate and in locked boxes is important to avoid mistakes when
handling cash.

                 We recommend:

                 K.1.1 That the administrative officer provide the cashier
                       with a lock box for local currency change.


2. The cashier did not post a copy of the general receipt outside the cashier cage.

OFMH 7.3 states, “The Cashier must post a copy of the FORPost General Receipt outside
the cashier window so debtors know what the form looks like.”

The cashier said that he provides staff and Volunteers with general receipts stamped paid
after paying a bill of collection. However, he had not posted a copy outside the cage and
said that individuals often shred their receipt after receiving it. Posting a copy of the
general receipt outside the cashier cage helps inform staff and Volunteers of their
responsibility to obtain a receipt as proof of payment. Further, staff and individuals
should retain a copy of the receipt marked paid. This helps mitigate the risk of fraud and
ensures the payee has proper support of payment in case of any disputes.

                 We recommend:

                 K.2.1 That the cashier post a copy of the general receipt
                       outside the cashier cage.

                 K.2.2 That the administrative officer instruct staff and
                       Volunteers to retain copies of paid receipts for the
                       required period of time.




Final Audit Report: Peace Corps/Paraguay                                                29
                        QUESTIONED COSTS AND
                     FUNDS TO BE PUT TO BETTER USE

We did not identify questioned costs during the course of the audit. We did identify
funds to be put to better use and unsupported costs that are detailed in the following
tables.



                                           Questioned Costs


Recommendation
                                                 Description                       Amount
    number
                       None



                                       Unsupported Costs


Recommendation
                                                 Description                       Amount
    number
                       Five Peace Corps Partnership Program projects that did
       A.3.1                                                                       $39,844
                       not have receipt of payments




                               Funds to be Put to Better Use


Recommendation
                                      Description                                  Amount
    number
     D.3.1     Inaccurate personal services contractor bonus                        $210




Final Audit Report: Peace Corps/Paraguay                                                 30
                                        POST STAFFING

At the time of our visit, the post had 50 staff positions: Three U.S. direct hire employees,
six foreign service nationals, and 41 PSCs. The post recently experienced staff turnover
is several key positions, including the PCMO, assistant Peace Corps director, and safety
and security coordinator positions. In addition, the post staff level increased as a result of
converting a contract for training services to PSCs. We interviewed a selection of staff
members including the country director, administrative officer, program and training
officer, and the two medical officers.
                                          PC/Paraguay Positions
                                       Position                                       Status
             Administrative Assistant (2)                                              PSC
             Administrative Officer                                                    FSN
             APCD/Agriculture                                                          PSC
             APCD/Education                                                            FSN
             APCD/Environment                                                         USDH*
             APCD/Health                                                               FSN
             APCD/Rural Economic Development                                           PSC
             Cashier                                                                   FSN
             Cleaner/Office Attendant                                                  PSC
             Country Director                                                         USDH
             Executive Secretary                                                       PSC
             Gardener                                                                  PSC
             GSO Assistant/ Office Manager                                             PSC
             Human Resources Assistant                                                 PSC
             IT Specialist                                                             PSC
             Language & Culture Facilitators (10)                                      PSC
             Librarian                                                                 PSC
             Master Trainer                                                            PSC
             Medical Office Secretary                                                  PSC
             Messengers (4)                                                            PSC
             PCMO (2)                                                                  PSC
             Program Specialist / Agriculture                                          PSC
             Programming & Training Officer                                           USDH
             Programming and Training Assistant                                        FSN
             Programming Assistant (2)                                                 PSC
             Receptionist                                                              PSC
             Technical Trainer (4)                                                     PSC
             Training Center Administrative Assistant                                  PSC
             Training Center Language Coordinator                                      PSC
             Training Center Logistics Coordinator                                     PSC
             Training Center Secretary                                                 FSN
             Training Manager                                                          PSC
              
             *In December 2009 - February 2010 the post transitioned this position to PSC and hired
             a USDH training director.




Final Audit Report: Peace Corps/Paraguay                                                              31
                         LIST OF RECOMMENDATIONS

We recommend:

A.1.1 That the PCPP coordinator ensure all completion reports are signed and receipts
      are reconciled to budgets before signing Volunteers’ close of service checklists.

A.1.2 That the coordinator communicate with APCDs concerning outstanding projects
      and necessary documentation during the monthly meetings.

A.1.3 That OPSI continue to develop a PCPP handbook or similar guidance to define
      staff roles and responsibilities regarding partnership projects.

A.2.1 That the administrative officer review the new process for PCPP coordination and
      periodically ensure that the coordinator is receiving and maintaining all
      supporting documentation for Volunteer projects.

A.3.1 That the director for global operations coordinate with the respective headquarters
      offices to develop and issue a policy memorandum instructing country directors to
      follow the procedures described in PCM section 103 and reminding them of the
      legal and administrative risks involved with signing cooperative agreements that
      purport to obligate or commit U.S. government funds and other resources.

A.4.1 That OPSI develop a process to track partnership projects from inception through
      completion, to identify projects that have not been completed in a timely manner
      or lack supporting documentation, and to request information from the posts
      needed to close projects timely.

A.4.2 That OPSI develop a process to test a selection of partnership projects on a
      regular basis for accuracy and completeness.

A.4.3 That OPSI develop a process to identify posts that repeatedly fail to provide
      timely and accurate project completion reports and provide that information to the
      regional management for follow-up and disciplinary actions.

A.5.1 That OPSI provide guidance on how Volunteers can effectively manage project
      funds, and when the assistance of local communities to manage funds is
      reasonable.

A.5.2 That OPSI work with the OGC to develop a notice of liability form for
      community partners to sign when receiving partnership funds.

B.1.1 That the billing officer fully utilize ForPost for billings and collections and stop
      using the outside system.


Final Audit Report: Peace Corps/Paraguay                                                     32
B.2.1 That the billing officer receive the support for all billings directly from the staff
      responsible for tracking the documentation supporting the amount owed.

B.2.2 That the billing officer maintain supporting documentation for all billings,
      including the basis for the amount owed and the general receipt.

B.2.3 That the collection officer provide general receipts to the billing officer on a
      regular basis.

B.3.1 That the billing officer requires staff to repay bills of collection within 30 days.

C.1.1 That the country director designate a staff member as an APC who is outside the
      medical unit and not the MSIC clerk to immediately begin to receive, inspect, and
      distribute medical supplies to the medical unit and assume all other duties as
      described in PCM section 734.

C.1.2 That the country director designate a staff member outside of the medical unit,
      who is not the MSIC clerk or APC, to perform quarterly physical inventories of
      medical supplies.

C.1.3 That the country director ensure that duties associated with receipt and acceptance
      of medical supplies; maintaining official medical supply inventory records of
      specially designated items and controlled substances; and periodic physical
      inventory counts be assigned to separate staff members that are outside the
      medical unit.

C.1.4 That the medical unit provide the MSIC clerk with the official form recording the
      dispensing of all medical supplies, without the Volunteer information, for all
      specially designated or controlled substances at least on a monthly basis.

C.1.5 That the MSIC clerk maintain an accurate and complete medical supply inventory
      record based on receipting documents provided by the acceptance point, forms
      recording dispenses, disposal documentation, and reconciliation of the results
      from the quarterly physical inventory counts.

C.1.6 That the country director separate the user roles within the medical supply
      database to ensure of the database administrator does not have responsibility for
      updating records.

C.2.1 That the country director require designated staff to perform an immediate
      physical inventory count of medical supplies.

C.2.2 That the country director, in conjunction with the medical officers, review the
      results of the comprehensive physical inventory and reconcile any differences
      found. The medical officers must fully explain all discrepancies found, provide



Final Audit Report: Peace Corps/Paraguay                                                      33
        proposed adjustments in inventories accordingly, and report any losses in
        accordance with PCM section 734.

C.2.3 That the MSIC clerk document the results of the comprehensive medical supply
      inventory together with any approved adjustments to the inventory in permanent
      inventory records as prescribed in PCM section 734.

D.1.1 That the country director require all PSCs to complete an intelligence background
      information certification form in accordance with Peace Corps policy.

D.1.2 That the administrative officer include copies of personal services contractors’
      completed intelligence background information certification in their respective
      files.
D.2.1 That the administrative officer track the employee security clearance expiration
      dates to ensure the post requests updated clearances timely.

D.2.2 That the administrative officer include copies of the security clearances in the
      personal services contractor files.

D.3.1 That the country director modify the technical trainer contracts and correct the
      basic compensation and bonus payment calculations based on the actual period of
      performance.

E.1.1 That the administrative officer take immediate corrective action to ensure the
      lease for the residence does not exceed five years.

E.1.2 That the administrative officer avoid signing leases with expiration and renewal
      dates in the first few weeks of October.

E.2.1 That the administrative officer maintains documentation showing the competition
      in the lease folders.

F.1.1 That the administrative officer conduct a market basket survey in conjunction
      with each living allowance survey and compare the results to determine if
      Volunteer allowances are reasonable. In accordance with Peace Corps policy, the
      post must analyze significant differences and make any necessary adjustments in
      living allowances.

F.2.1 That the country director instruct his staff to secure the Volunteer property held at
      post in a locked area with controlled access.

F.2.2 That the country director develop a process to inventory the Volunteer property
      held at post to record a description of the property and estimated value in case of
      loss or theft.




Final Audit Report: Peace Corps/Paraguay                                                 34
G.1.1 That the country director requests written approval from the regional director and
      the Post Logistics Support within the Office of Management.

H.1.1 That the administrative officer require staff to prepare their own travel vouchers.

H.1.2 That the administrative officer provide training to staff on how to properly
      prepare their own travel vouchers.

H.2.1 That the administrative officer ensure travel authorizations are established before
      travel and provide the stated per diem.

H.2.2 That the administrative officer ensure travel vouchers are submitted within five
      days of completion of travel with an accurate accounting of costs.

I.1.1   That the country director obtain a waiver from the director of financial
        management for the services that are not explicitly authorized in PCM section 708
        or find an alternative means for the services.

I.1.2   That the Office of the Chief Financial Officer update PCM section 708 to
        incorporate ICASS.

J.1.1   That the chief of staff direct the update of PCM section 511 in order to clearly
        define the categories of property in agreement with federal standards and financial
        policies and to remove references to the property systems no longer used.

J.1.2   That the property officer develop a process for tagging and inventorying property
        that uses the official Peace Corps property tags for capitalized property and
        promotes efficiency between the property officer and information technology
        specialist.

J.2.1   That the country director assign individuals other than the property officer to
        conduct the physical inventories.

J.2.2   That the property officer maintain records documenting the physical inventory
        and reconciliation process.

K.1.1 That the administrative officer provide the cashier with a lock box for local
      currency change.

K.2.1 That the cashier post a copy of the general receipt outside the cashier cage.

K.2.2 That the administrative officer instruct staff and Volunteers to retain copies of
      paid receipts for the required period of time.




Final Audit Report: Peace Corps/Paraguay                                                  35
APPENDIX A

            OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and comply with Peace Corps
policies and federal regulations. Our audit conclusions are based on information from
three sources: (1) document and data analysis, (2) interviews, and (3) direct observation.
Our audits are conducted in accordance with the government auditing standards
prescribed by the Comptroller General of the United States.

The audit of PC/Paraguay covered fiscal years 2008 and 2009 through February 5, 2009.
While at the post, we interviewed key staff including the country director, the
administrative officer, the program and training officer, the safety and security
coordinator, staff responsible for administrative support, and the medical officers. We
also interviewed Volunteers to obtain their views on the effectiveness of the post’s
administrative and financial systems in supporting them. At the end of the audit, we
briefed the country director and post management personnel. At headquarters, we
conducted a general briefing for regional staff.

We relied on computer-processed data from the post’s accounting system. While we did
not test the system’s controls, we believe the information generated by the system and
used by us was sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the PCM,
OFMH, and current Peace Corps initiatives and policies.
APPENDIX B


             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
A.1.1 That the PCPP coordinator ensures all completion reports are signed and receipts are
reconciled to budgets before signing Volunteers’ close of service checklists.
    Concur: The PCPP coordinator receives and reconciles all PCPP projects before signing Volunteers’
    close of service checklists. Beginning in November 2009, the PCPP coordinator was reassigned and
    the process was reviewed. The process was implemented with the next COSing group who closed their
    service in December 2009.
    Date of completion: November 24, 2009 and ongoing
    Documentation: COS Checklist, E-mail from AO, Example of completed PCPP Report

A.1.2 That the coordinator communicates with APCDs concerning outstanding projects and
necessary documentation during the monthly meetings.
       Concur: Post is utilizing a tracking sheet that the AA maintains on a shared folder. The AA will
       email to APCDs and PSs a link containing the latest information on each project, including an
       agenda from program meetings where PCPP and SPA projects are discussed.

       Date of Completion: June 21, 2010 and ongoing
       Documentation: PCPP tracking sheet, e-mail

A.1.3 That OPSI continues to develop a PCPP handbook or similar guidance to define staff roles
and responsibilities regarding partnership projects.

       Concur: OPSI is awaiting final approval from Global Operations to send out a survey to gather
       information about how the Peace Corps Partnership Program (PCPP) is managed at the post level.
       Responses from this survey will be assessed and results will be implemented to further streamline
       the PCPP process.

       As OPSI grows, we are working to clearly define staff roles and responsibilities regarding PCPP
       projects. In addition to OPSI’s PCPP Volunteer Handbook, the office is the process of developing a
       post handbook that will contain post-specific guidance and best practices to assist in implementing
       PCPP. We anticipate that the PCPP Post Handbook will be developed and distributed to posts
       during FY 2011. Revised Volunteer materials will be distributed in summer 2010.

       Date Implemented: Prior to the audit and ongoing.

A.2.1 That the administrative officer reviews the new process for PCPP coordination and
periodically ensures that the coordinator is receiving and maintaining all supporting
documentation for Volunteer projects.

    Concur: The AO will periodically review projects and ensure that procedures are kept up-to-date. Post
    has developed a checklist to ensure that the coordinator receives and maintains all supporting
    documentation for SPA or PCPP projects which the AO reviews.

    Date of Completion: June 1, 2010 and ongoing
    Documentation: PCPP Checklist


                                                                                                           2
A.3.1 That the director for global operations coordinates with the respective headquarters offices to
develop and issue a policy memorandum instructing country directors to follow the procedures
described in PCM section 103 and reminding them of the legal and administrative risks involved
with signing cooperative agreements that purport to obligate or commit U.S. Government funds
and other resources.

       Concur: MS 103 was originally drafted and issued to provide a review process for collaboration
       between PC and other Federal government agencies. In practice, MS 103 has been used as well by
       the agency to review and approve collaboration between PC and NGOs to develop global
       partnerships. However, certain agreements have been exempted from such review because they are
       administered with a pre-approved template or are covered in existing bilateral agreements. These
       include Master’s International, PC Fellows, and post implementing arrangements with host
       government entities and Volunteer site assignments.

       The Office of Global Operations will work with General Counsel to craft a memorandum to posts
       by August 31 that clarifies current authority and guidance for establishing partnership agreements at
       post and highlight the legal and administrative risks of signing agreements outside of their authority.
       The guidance will be completed and distributed to posts by August 31, 2010.

       Date of completion: August 31, 2010

A.4.1 That the OPSI develops a process to track partnership projects from inception through
completion, to identify projects that have not been completed in a timely manner or lack
supporting documentation, and to request information from the posts needed to close projects
timely.

       Concur: OPSI oversees implementation of PCPP projects from inception to completion in close
       partnership with the posts. Throughout the life of a project, OPSI maintains both paper and
       electronic files with detailed project data and post correspondence, as well as updates financial
       information through Odyssey. Once OPSI ensures the correct amount is successfully sent to
       Volunteers, it is the posts’ responsibility to track on the ground implementation.

       In an effort to give posts consistent and regular feedback on implementing projects, OPSI will send
       a status report to posts every two months. The report will include a list of projects that are being
       implemented by Volunteers who are within two months of their COS date. It will also outline
       outstanding items that these Volunteers need to complete for PCPP before their departure from
       Peace Corps. Posts will be asked to respond to each item listed with a current status and an
       anticipated completion date. The status report will specify that all Final Reports need to include
       itemized budgets that have been checked by the AO and that the full Final Report must be reviewed
       by the CD to ensure that donor funds were spent appropriately.

       Date Implemented: Prior to the audit and ongoing.

A.4.2 That the OPSI develops a process to test a selection of partnership projects on a regular basis
for accuracy and completeness.

       Concur: On a pilot basis until OPSI can determine the appropriate frequency and process, OPSI
       will conduct a random spot check of closed projects to ensure accuracy and completeness of the
                                                                                                             3
       project files. Once each quarter, beginning in Q4 of FY 2010, OPSI will request a sampling of three
       recently closed projects from one post in each region (IAP, EMA, Africa). OPSI will look again at
       this process in FY 2011 to determine how to proceed with these spot checks moving forward.

       Date Implemented: Q4, FY2010

A.4.3 That the OPSI develops a process to identify posts that repeatedly fail to provide timely and
accurate project completion reports and provide that information to the regional management for
follow-up and disciplinary actions.

       Concur: OPSI will use the results from the status report findings outlined in item A.4.1 to track
       which posts have frequent outstanding items and/or fail to appropriately respond to requests for
       updates on this information. Once each quarter, after analyzing feedback from the post status
       report, OPSI will request a meeting with staff from posts who have not responded appropriately or
       for whom we have questions. In the meeting we will discuss key issues and identify an action plan
       for the post staff to work closely with OPSI staff to address them.

       Date Implemented: Q4, FY2010

A.5.1 That the OPSI provides guidance on how Volunteers can effectively manage project funds,
and when the assistance of local communities to manage funds is reasonable.

       Concur: In the IPBS 2011-2013, OPSI included an objective to “review, revise (if needed), and
       develop PCPP materials (handbook, application, final report, etc.).” Following submission of the
       IPBS, OPSI developed a scheduled monitoring plan to regularly review, update, and disseminate
       PCPP materials. The office is nearing completion of the process to review the latest PCPP
       Volunteer Handbook and will include a section detailing methods of how Volunteers can effectively
       manage project funds and how local communities can be involved and share financial responsibility.
       OPSI will also include best practices on this topic in the post handbook so that posts have the tools
       to support Volunteers.

       Date Implemented: Updated Volunteer Handbook, Summer 2010 and FY 2011 for Post
       Handbook

A.5.2 That the OPSI works with the OGC to develop a notice of liability form for community
partners to sign when receiving partnership funds.

       Concur: OPSI will work with OGC to develop a notice of liability form for community partners to
       sign when receiving partnership funds, as appropriate.

B.1.1 That the billing officer fully utilizes For Post for billings and collections and stop using the
outside system.

     Concur: The billing officer prepares bills of collection (BOC) utilizing ForPost and attaches the
     appropriate documentation. The BOC is then delivered to the person that owes the bill and a copy is
     kept in a folder for tracking purposes, as well as the outstanding BOC report displayed in ForPost. Use
     of the outside system (Fox Pro database) has been discontinued.
     Date of Completion: June 1, 2010 and ongoing
                                                                                                             4
     Documentation: General Receipt (PC-2057), BOC (PC-1566), Vendor bill, Track-it of deletion of
     program

B.2.1 That the billing officer receives the support for all billings directly from the staff responsible
for tracking the documentation supporting the amount owed.
     Concur: The billing officer receives the documentation supporting the amount owed and prepares the
     bill for collection in ForPost and then delivers it to the staff responsible for the bill. Copies of all
     documents are kept in a folder for tracking purposes, along with the outstanding BOC displayed in
     ForPost . An example of supporting documentation for billings (personal phone usage) is provided.
     Date of Completion: June 1, 2010 and ongoing
     Documentation: Example of invoice, General Receipt (PC-2057), BOC (PC-1566), Vendor bill,
     Outstanding collections report from ForPost

B.2.2 That the billing officer maintains supporting documentation for all billings, including the
basis for the amount owed and the general receipt.
     Concur: The billing officer maintains supporting documentation for all billings including the basis for
     the amount owed and the printed form generated by FOR Post. A copy of the General Receipt issued
     by the collecting officer has been included in the BOC folder as back up documentation.
     Date of Completion: February 22, 2010 and ongoing
     Documentation: General Receipt (PC-2057), BOC (PC-1566), Vendor Bill, Outstanding collections
     report from FOR Post, Example of invoice

B.2.3 That the collection officer provides general receipts to the billing officer on a regular basis.

     Concur: The collection officer delivers copies of the General Receipt to the billing officer after
     payment is collected. Please see example enclosed showing all phases of the process.
     Date of Completion: 02/22/2010 and ongoing
B.3.1 That the billing officer requires staff to repay bills of collection within 30 days.
       Concur: The billing officer delivers the BOC printout from ForPost to the staff member that owes
       the money and monitors the funds owed through the Outstanding Bill of Collection report in
       ForPost. After a week, if the staff member has not paid the bill, an email is sent by the AO to
       remind the staff member of the debt. This procedure is now included in the staff handbook.

       Date of Completion: 02/22/2010 and ongoing
       Documentation: Example of invoice, General Receipt (PC-2057), BOC (PC-1566)Vendor bill
       Outstanding collections report from FOR Post, section from Staff handbook

C.1.1 That the country director designates a staff member as an APC who is outside the medical
unit and not the MSIC clerk to immediately begin to receive, inspect, and distribute medical
supplies to the medical unit and assume all other duties as described in PCM section 734.

       Concur: The Country Director has designated the Financial Assistant as the MSIC and the HR
       Administrative Assistant as the APC. PCMOs are responsible for dispensing medical supplies to
       Volunteers.
                                                                                                               5
       Date of Completion: 06/01/2010
       Documentation: Memo

C.1.2 That the country director designates a staff member outside of the medical unit, who is not
the MSIC clerk or APC, to perform quarterly physical inventories of medical supplies.

       Concur: The Country Director designated the Administrative Officer to perform quarterly physical
       inventories of medical supplies.

       Date of completion: 06/01/2010
       Documentation: Memo

C.1.3 That the country director ensures that duties associated with receipt and acceptance of
medical supplies; maintaining official medical supply inventory records of specially designated
items and controlled substances; and periodic physical inventory counts be assigned to separate
staff members that are outside the medical unit.

       Concur: The Country Director has ensured that these duties be assigned to separate staff members
       that are outside the medical unit. The HR/AA has been designated as the APC who will be in charge
       of receiving medical supplies, the MSIC clerk or the FA maintains official medical supplies inventory
       records of specially designated items and controlled substances; and the AO will conduct periodic
       physical inventory counts.

       Date of completion: 06/01/2010 and ongoing
       Documentation: Memo

C.1.4 That the medical unit provides the MSIC clerk with the official form recording the dispensing
of all medical supplies, without the Volunteer information, for all specially designated or controlled
substances at least on a monthly basis.

       Concur: Post created a sophisticated, computerized medical supplies control system that maintains a
       permanent, up-dated inventory of all medical supplies. This system has the ability to generate a
       form that records when medical supplies are dispensed. At COB, the PCMO signs this form.
       Because of the efficiency of the system, OMS has requested that our PCMOs bring samples for the
       FY 10 CME. OMS is considering the use of this system PC-wide. Post continually monitors,
       evaluates, and improves the program.

       Date of completion: Commenced 04/2009, with improvements 06/18/2010
       Documentation: Dispensed Medication Records

C.1.5 That the MSIC clerk maintains an accurate and complete medical supply inventory record
based on receipting documents provided by the acceptance point, forms recording dispenses,
disposal documentation, and reconciliation of the results from the quarterly physical inventory
counts.

       Concur: MSIC clerk maintains an accurate and complete medical supply inventory record based on
       receipting documents provided by the acceptance point, forms recording dispenses, disposal
                                                                                                          6
       documentation, and reconciliations of the results from the quarterly physical inventory counts. Post
       created a file to document the computerized medical supplies system report regarding the functions
       mentioned in the recommendation (see enclosed).

       Date of completion: 06/01/2010 and ongoing
       Documentation: List of purchased medicines, Obligating document (PC 2060), Payment voucher
       (PC 2059), Medical Supplies Inventory Report

C.1.6 That the country director separates the user roles within the medical supply database to
ensure the database administrator does not have responsibility for updating records.

       Concur: Separate functions have been assigned as follows:
             1. Starting on 06/01/2010, the AO is the Medical Supply Inventory Control Officer.
             2. The Acceptance Point Clerk, (APC) is the HR/AA.
             3. Medical Secretary will be acting as Miscellaneous Clerk.
             4. PCMOs are dispensing medical supplies to Volunteers.

       Date of completion: 06/01/2010
       Documentation: Memo

C.2.1 That the country director requires designated staff to perform an immediate physical
inventory count of medical supplies.

       Concur: The AO has performed the physical inventory of medical supplies.

       Date of completion: 06/01/2010
       Documentation: Memo

C.2.2 That the country director, in conjunction with the medical officers, reviews the results of the
comprehensive physical inventory and reconcile any differences found. The medical officers must
fully explain all discrepancies found, provide proposed adjustments in inventories accordingly, and
report any losses in accordance with PCM section 734.

       Concur: The Country Director will review the results of the comprehensive physical inventory and
       reconcile any differences. At this time, the Medical Officers will fully explain any discrepancies and
       report any losses in accordance with PCM section 734.

       Date of completion: 06/30/2010 and ongoing

C.2.3 That the MSIC clerk documents the results of the comprehensive medical supply inventory
together with any approved adjustments to the inventory in permanent inventory records as
prescribed in PCM section 734.

       Concur: The MSIC clerk will document the results and approved adjustments to the permanent
       medical inventory as required in PCM Section 734.

       Date of completion: 06/30/2010 and ongoing


                                                                                                                7
D.1.1 That the country director requires all PSCs to complete an intelligence background
information certification form in accordance with Peace Corps policy.

       Concur: The intelligence background information certification form has been completed by all staff
       members according to Peace Corps policy (see enclosed)

       Date of completion: 06/30/2010 and ongoing
       Documentation: Signed background information from staff (MS611)

D.1.2 That the administrative officer includes copies of personal services contractors’ completed
intelligence background information certification in their respective files.

       Concur: The AO has included all intelligence background information certifications into the PSCs’
       files.

       Date of completion: 06/01/2010 and ongoing
       Documentation: PSC file checklist, Examples of security clearances included in files

D.2.1 That the administrative officer tracks the employee security clearance expiration dates to
ensure the post requests updated clearances timely.

       Concur: The AO has added a checklist to each PSC file to ensure that every five years a new
       clearance is performed for each employee (see enclosed).

       Date of completion: 06/30/2010 and ongoing
       Documentation: Clearance tracking sheet

D.2.2 That the administrative officer includes copies of the security clearances in the personal
services contractor files.
       Concur: The security clearances have been completed and filed in PSCs/FSNs folders with the
       exception of two staff members (see enclosed). The clearance for the 2 remaining staff members is
       pending the RSO’s signature and will be included in their files upon receipt.

       Date of completion: 06/30/2010 and ongoing
       Documentation: PSC file checklist, examples of security clearances included in files

D.3.1 That the country director modifies the technical trainer contracts and correct the basic
compensation and bonus payment calculations based on the actual period of performance.

       Concur: Local Technical Trainers PSC contracts were calculated correctly. However, all other local
       Training Center PSC contracts that required bonus payment adjustment have been modified (see
       enclosed example).

       Date of completion: 05/12/2010
       Documentation: Signed modified contract

E.1.1 That the administrative officer takes immediate corrective action to ensure the lease for the
residence does not exceed five years.
                                                                                                            8
       Concur: Post will modify the lease contract - Clause III to reduce the length of the last option year
       of the contract by 15 days to be in compliance with the recommendation.

       Date of completion: 08/31/2010

E.1.2 That the administrative officer avoids signing leases with expiration and renewal dates in the
first few weeks of October.
        Concur: Post will avoid signing leases with expiration and renewal dates in the first few weeks of
        October. Post will correct this at the contract renewal period in August.

       Date of completion: 08/31/2010 and ongoing

E.2.1 That the administrative officer maintains documentation showing the competition in the
lease folders.
        Concur: Post conducted housing market research to include all the necessary documentation in the
        lease contract file.

       Date of completion: 06/23/2010 and ongoing
       Documentation: Housing market research document

F.1.1 That the administrative officer conducts a market basket survey in conjunction with each
living allowance survey and compare the results to determine if Volunteer allowances are
reasonable. In accordance with Peace Corps policy, the post must analyze significant differences
and make any necessary adjustments in living allowances.

       Concur: Post is currently performing a country wide basket survey to properly document the living
       allowance adjustments that resulted from the last survey performed in April, 2010 (see enclosed a
       sample of the form to be used by programming staff to collect data)

       Date of completion: 07/31/10 and ongoing
       Documentation: Survey form sample

F.2.1 That the country director instruct his staff to secure the Volunteer property held at post in a
locked area with controlled access.
       Concur: A secure room has been designated as the place for keeping PCVs property. A control
       Clerk has been designed for this room and an ‘in and out’ form has been implemented for PCVs
       who are using this service. The Country Director has issued a Memo to staff instructing to secure all
       Volunteer property in this area. (see enclosed).

       Date of completion: 06/01/2010
       Documentation: picture of secure room, check-in list, memo

F.2.2 That the country director develop a process to inventory the Volunteer property held at post to
record a description of the property and estimated value in case of loss or theft.

       Concur: Post will perform a complete inventory of all PCV property held at post, including a
       description of the item and the value.
                                                                                                               9
       Date of completion: 07/31/2010

G.1.1 That the Country Director requests written approval from the regional director and the Post
Logistics Support within the Office of Management.

       Concur: The Country Director has been in communication with Region to ensure regional approval
       to increase the vehicle fleet ceiling.

       Date of completion: 06/23/2010
       Documentation: Approval Memo

H.1.1 That the administrative officer requires staff to prepare their own travel vouchers.

       Concur: The AO requires staff to prepare their own travel vouchers. The AO sent the travel
       voucher to all staff, as well as provided instructions for the ease of preparation.

       Date of completion: 06/30/2010 and ongoing
       Documentation: sample of travel voucher, e-mail with instructions

H.1.2 That the administrative officer provides training to staff on how to properly prepare their own
travel vouchers.

       Concur: A training session for all PC staff is planned to comply with this recommendation. The
       presentation for this training session is included.

       Date of completion: 06/30/2010
       Documentation: Power Point presentation


H.1.3 That the administrative officer ensures travel authorizations are established before travel and
provide the stated per diem rate.

       Concur: AO will ensure that all Travel Authorizations have been prepared before travel starts. This
       information has been included in the training.

       Date of completion: 06/01/2010 and ongoing
       Documentation: Power Point presentation

H.2.1 That the administrative officer ensures travel authorizations are established before travel and
provide the stated per diem.

       See Recommendation H.1.3

H.2.2 That the administrative officer ensures travel vouchers are submitted within five days of
completion of travel with an accurate accounting of costs.



                                                                                                         10
       Concur: Post will ensure that vouchers for international travel are submitted within five days after
       the travel is terminated. This information has been included in the training, as well as the
       instructions.

       Date of completion: 06/01/2010 and ongoing
       Documentation: Instructions, Power Point presentation


I.1.1 That the country director obtains a waiver from the director of financial management for the
services that are not explicitly authorized in PCM section 708 or find an alternative means for the
services.

       Concur: Post sent a memo to ICASS Chairman requesting withdrawal from housing services to be
       in compliance with this recommendation (see enclosed)

       Date of completion: 08/06/2010
       Documentation: Memo to MO Mona Kuntz, housing waiver

I.1.2 That the Office of the Chief Financial Officer updates PCM section 708 to incorporate ICASS.

       Concur: The Office of the Chief Financial Officer is currently in the process of updating MS 708 to
       include ICASS.

       Date of completion: 10/31/2010

J.1.1 That the chief of staff directs the update of PCM section 511 in order to clearly define the
categories of property in agreement with federal standards and financial policies and to remove
references of the property systems no longer used.

       Concur: The Chief of Staff has directed the update of PCMS 511. The Office of Administrative
       Services (M/AS)is currently updating this MS. The draft clearly defines the property categories in
       agreement with federal standards and financial policies. The update removes all references to
       property systems no longer in use.

       Completion Date: September 2010

J.1.2 That the property officer develops a process for tagging and inventorying property that uses
the official Peace Corps property tags for capitalized property and promotes efficiency between the
property officer and information technology specialist.

       Concur: Post will develop a process for tagging and inventorying property which promotes
       efficiency between the property officer and the information technology specialist. To implement
       this, post has requested official Peace Corps property tags from Headquarters. As soon as Post
       receives the property tags, a property inventory team will be created that includes the IT Specialist.

       Date of completion: 08/31/2010
       Documentation: E-mail requesting official tags


                                                                                                                11
J.2.1 That the country director assigns individuals other than the property officer to conduct the
physical inventories.

       Concur: Post will create an inventory team that will not include the property officer to conduct the
       physical inventories.

       Date of completion: 08/31/2010

J.2.2 That the property officer maintains records documenting the physical inventory and
reconciliation process.

       Concur: Post will maintain records to document the inventory and reconciliation process.

       Date of completion: 08/31/2010 and ongoing

K.1.1 That the administrative officer provides the cashier with a lock box for local currency change.

       Concur: New cash box has been purchased for the cashier to comply with this recommendation
       (see enclosed)

       Date of completion: 02/22/2010
       Documentation: picture of cashier's box

K.2.1 That the cashier posts a copy of the general receipt outside the cashier cage.

       Concur: A copy of the general receipt has been posted outside of the cashier cage (see enclosed)

       Date of completion: 06/01/2010
       Documentation: picture of General Receipt posted

K.2.2 That the administrative officer instructs staff and Volunteers to retain copies of paid receipts
for the required period of time.
        Concur: A note to all PCVs and staff has been posted outside of the cashier cage requesting them
        to retain copies of paid receipts.

       Date of completion:

       Documentation: picture of General Receipt posted




                                                                                                          12
APPENDIX C


                               OIG COMMENTS

Management concurred with all 50 recommendations made in our preliminary report. We
subsequently removed recommendation H.1.3 because it was the same as recommendation
H.2.1. As a result, the final audit report contained 49 recommendations.

We closed 38 recommendations based on the Agency’s response and supporting
documentation. We request additional documentation to close recommendations A.3.1,
A.4.1, A.4.2, A.4.3, A.5.1, A.5.2, E.2.1, I.1.2, J.1.1, J.2.1 and J.2.2. These
recommendations remain open pending confirmation from the chief compliance officer
that the following has been received:

      For recommendation A.3.1: We agree as noted in our audit report that Peace Corps
       Manual section 103 was not originally intended to provide a review process for
       post implementing arrangements with host government entities. We referenced the
       process to illustrate an existing procedure that provides for review by management
       and the Office of General Counsel, which is essential for an effective consideration
       of the legal and financial risks. We accept management’s response and corrective
       action to issue a memorandum from the Office of Global Operations, in
       coordination with General Counsel. A clarification of the current authority and
       guidance for establishing the partnership agreements and a discussion of the risks
       involved in signing agreements outside of the country director’s authority would
       satisfy the recommendation. Therefore, this recommendation remains open
       pending a copy of this memorandum upon issuance.

      For recommendation A.4.1 and A.4.3: A copy of the status report on PCPP
       projects.

      For recommendation A.4.2: Documentation of the OPSI quarterly spot checks of
       PCPP projects and the accompanying status report findings.

      For recommendation A.5.1: We acknowledge that OPSI was developing the
       updated Volunteer Handbook during the audit and request a copy of the completed
       version to close this recommendation.

      For recommendation A.5.2: A copy of the notice of liability form for community
       partners to sign when receiving partnership funds.

      For recommendation E.2.1: A copy of the housing market research document used
       by post when searching for properties to lease.

      For recommendation I.1.2: A copy of the updated PCM section 708 discussing the
       current policies regarding ICASS.
APPENDIX C

      For recommendation J.1.1: A copy of the updated PCM section 511 that defines
       the categories of property in agreement with federal standards and financial
       policies and no longer discusses property systems not in use.

      For recommendation J.2.1 and J.2.2: A copy of the post’s physical inventory and
       reconciliation documentation for the current fiscal year showing the signatures of
       the inventory team.

In their response, management describes actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that they have taken these actions nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when it is warranted, we may conduct a follow-
up review to confirm that action has been taken and to evaluate the impact.
APPENDIX D

            AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION
Senior auditor Bradley Grubb performed the audit of PC/Paraguay in coordination with
the Office of Inspector General Investigations.


OIG CONTACT
If you wish to comment on the quality or usefulness of this report to help us strengthen
our product, please e-mail Steven Kaffen, Acting Assistant Inspector General for Audit,
at skaffen@peacecorps.gov, or call him at (202) 692-2905.
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Volunteers to agency employees to the general
public. We actively solicit allegations of inefficient and wasteful
practices, fraud, abuse, and mismanagement related to Peace
Corps operations domestically or abroad. You can report
allegations to us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  800.233.5874
               Washington Metro Area:              202.692.2915


Fax:           202.692.2901

Email:         oig@peacecorps.gov
